STATE OF ILLINOIS
SUPREME COURT
At a Term of the Supreme Court, begun and held in Springfield, on Monday, the 11th day of
May, 2020.
Present: Anne M. Burke, Chief Justice
Justice Thomas L. Kilbride
Justice Rita B. Garman
Justice Lloyd A. Karmeier
Justice Mary Jane Theis
Justice P. Scott Neville, Jr.
Justice Michael J. Burke
On the 27th day of May, 2020, the Supreme Court entered the following judgment:
No. 124869
People State of Illinois,
Respondent
v.

Petition for Leave to
Appeal from
Appellate Court
Third District
3-17-0134
16CF77

Jeremiah Paige Rice,
Petitioner
The Court having considered the Petition for leave to appeal and being fully advised of the
premises, the Petition for leave to appeal is DENIED.

As Clerk of the Supreme Court of the State of Illinois and keeper of the records, files and
Seal thereof, I certify that the foregoing is a true copy of the final order entered in this case.
IN WITNESS WHEREOF, I have hereunto
subscribed my name and affixed the seal
of said Court, this 1st day of July, 2020.
Clerk,
Supreme Court of the State of Illinois

